               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Closure of Contract Postal Units

         Management Advisory Report




                                              August 16, 2012

Report Number CI-MA-12-001
                                                                       August 16, 2012

                                                    Closure of Contract Postal Units

                                                        Report Number CI-MA-12-001




BACKGROUND:
This review responds to a request from      alternatives, financial position, and
U.S. Congressman Gus M. Bilirakis, 9th      customer access.
District, Florida. Contract postal units
(CPUs) are the retail alternative most      WHAT THE OIG FOUND:
similar to post offices (POs). They are     While CPUs are part of the
operated and managed by independent         Postal Service’s overall strategy to
retailers to provide a range of U.S.        expand retail alternatives,
Postal Service products and services to     Postal Service management stated that
customers at Postal Service prices.         the 20 CPU closures were needed to
Retail alternatives, such as CPUs and       facilitate the 2010-2015 Collective
self-serve kiosks, provide postal           Bargaining Agreement negotiation.
services at a lower cost than traditional   Accordingly, the Postal Service closed
brick and mortar POs. As of fiscal year     the 20 CPUs in compliance with the
2011, the Postal Service had 2,904          MOU, the CPU contract termination
CPUs out of a network of 35,756 retail      clauses, and Postal Service guidance.
facilities.                                 The impact on retail alternatives was
                                            minimal, and we estimated the potential
In May 2011, the Postal Service and the     annual net revenue loss could range
American Postal Workers Union               from about $284,000 to $1.4 million.
(APWU) signed the 2010-2015
Collective Bargaining Agreement that         In addition, although customers have
included a memorandum of                    options to access postal products and
understanding (MOU) to close or             services in nearby facilities, there are
convert 20 CPUs to Postal Service           customer inconveniences such as
operated facilities staffed by              changing PO box numbers, delivery
Postal Service employees. The APWU          options, and traveling new distances.
and Postal Service selected the 20
CPUs, and both parties stated the MOU       WHAT THE OIG RECOMMENDED:
was part of an enterprise wide $3.8         Because the MOU to close CPUs was
billion cost saving.                        part of the Postal Service and APWU
                                            2010-2015 Collective Bargaining
In June 2011, the Postal Service began      Agreement, we are not making any
closing the CPUs, and as of the end of      recommendations.
May 2012, the 20 CPUs are closed. Our
objective was to review the impact of the   Link to review the entire report
closures on Postal Service’s retail
August 16, 2012

MEMORANDUM FOR:           KELLY M. SIGMON
                          VICE PRESIDENT, CHANNEL ACCESS


                                  E-Signed by Michael A. Magalski
                                  VERIFY authenticity with e-Sign


FROM:                     Michael A. Magalski
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                  Management Advisory – Closure of Contract Postal
                          Units (Report Number CI-MA-12-001)

This report presents the results of our review of the Postal Service’s closure of 20
contract postal units requested by U.S. Congressman Gus M. Bilirakis (Project Number
12YG021CI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael L. Thompson, director,
Planning, Innovation, and Optimization, or me at 703-248-2100.

Attachments

cc: Nagisa M. Manabe
    Brian B. Code
    Patrick M. Devine
    Dennis W. Kelly
    Corporate Audit and Response Management
Closure of Contract Postal Units                                                                                        CI-MA-12-001



                                                 TABLE OF CONTENTS


Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 2

Contract Postal Unit Operations ......................................................................................... 2

Customer Access ................................................................................................................ 4

Management’s Comments .................................................................................................. 5

Evaluation of Management’s Comments ............................................................................ 5

Appendix A: Additional Information..................................................................................... 6

   Background ...................................................................................................................... 6

   Objective, Scope, and Methodology ............................................................................... 6

   Prior Audit Coverage ....................................................................................................... 7

Appendix B: Other Impact ................................................................................................... 8

Appendix C: Contract Postal Unit Customer Access Details ............................................. 9

Appendix D: Management’s Comments ........................................................................... 10
Closure of Contract Postal Units                                                                        CI-MA-12-001



Introduction

This report presents the results of our review of the U.S. Postal Service’s closure of
20 contract postal units (CPU) (Project Number 12YG021CI000). The report responds
to a request from U.S. Congressman Gus M. Bilirakis, 9th District, Florida, on the impact
20 CPU closures may have on the Postal Service’s retail alternatives, financial position,
and customer access. This review addresses financial and operational risks. See
Appendix A for additional information about this review.

According to the Postal Service’s 2011 Comprehensive Statement on Postal
Operations, 1 retail alternatives provide postal services at a lower cost than traditional
brick and mortar post offices (PO). Compared to fiscal year (FY) 2010, retail revenue
from customer visits to POs has declined by 10 percent, while customer access through
alternative retail access channels has increased by 12.1 percent, generating about
35 percent of total retail revenue. Retail alternatives 2 include usps.com, self-serve
kiosks, (SSK) stamps on consignment (SoC), approved shippers (AS), and CPUs.
CPUs are the retail alternative most similar to POs. A CPU may be a stand-alone
business or may occupy space at a larger business, such as a counter within a store
(for example, a grocery store, pharmacy, or college bookstore) that sells other products
and services. CPUs are operated and managed by independent retailers to provide a
range of postal products and services to customers at Postal Service prices. According
to the Postal Service, as of FY 2011, there were 2,904 CPUs out of a network of 35,756
retail facilities. 3

In September 2010, the Postal Service and American Postal Workers Union (APWU)
began negotiations for the 2010-2015 Collective Bargaining Agreement 4 (Collective
Bargaining Agreement) that included a memorandum of understanding 5 (MOU) to close
20 CPUs. During the negotiations, both parties agreed to close or convert CPUs to
Postal Service operated facilities staffed by Postal Service employees. The APWU and
Postal Service selected the 20 full-service CPUs that provide postal services with
PO Box Service identified in the MOU (see Table 1). According to both parties, the
MOU to close 20 CPUs was part of an enterprise wide $3.8 billion cost saving effort. In
June 2011, the Postal Service began closing the CPUs, and as of May 2012, all
20 CPUs were closed.



1
  2011 Annual Report to Congress and Comprehensive Statement.
2
  The Postal Service also provides alternative retail access through Village POs, mobile retail vans, PO Express units
(Postal Service operated outlets at privately owned facilities), stamps by mail, stamps by phone, and third-party
online vendors.
3
  The network is made up of POs, stations, branches, CPUs, and community POs. Stations and branches are staffed
by Postal Service employees under the administration of a PO. Stations are located within and branches are located
outside of the corporate limits of the city or town in which the PO is located. A community PO is a contract unit that
provides postal services in small communities where a Postal Service operated facility has been discontinued. A
community PO usually bears its community’s name and ZIP Code.
4
  Agreement Between the U.S. Postal Service and the American Postal Workers Union, AFL-CIO 2010-2015.
5
  Memorandum of Understanding Between The U.S. Postal Service And The American Postal Workers Union, AFL-
CIO, Re: Contract Postal Units.
                                                              1
     Closure of Contract Postal Units                                                          CI-MA-12-001




                                               Table 1 – List of 20 CPUs
                                               CPU Name, City, and State
           A&L Management Company — Bronx,
 1         NY                                                      11 Chubbuck Station — Pocatello, ID

 2         Alplaus Community — Alplaus, NY                         12 CPU #386 — Brooklyn, NY
           Altosano Contract CPU — San
 3         Sebastian, PR                                           13 Denmark — Denmark, NY
                                                                      Jake Alexander Boulevard CPU —
 4         Audry Hardy — Port Arthur, TX                           14 Salisbury, NC

 5         Better Letter — Brooklyn, NY                            15 Kemp — Hendrix, OK

 6         Boscawen — Boscawen, NH                                 16 Lake Buena Vista CPU — Orlando, FL

 7         Callaway CPU — Panama City, FL                          17 Market Place Center — Temple, TX

 8         Cape Cottage — Cape Elizabeth, ME                       18 North Robinson — North Robinson, OH

 9         Central Commons — Bridgeport, CT                        19 Salona Station — Mill Hall, PA

 10        Chars Hallmark — Palm Harbor, FL                        20 The Mailroom — Enid, OK
Source: MOU between the Postal Service and the APWU.


     Conclusion

     While CPUs are part of the Postal Service’s overall strategy to expand retail
     alternatives, Postal Service management stated that the CPU closures were needed to
     facilitate the Collective Bargaining Agreement negotiations. Accordingly, the
     Postal Service closed the 20 CPUs in compliance with the MOU, contract termination
     clauses, and Postal Service guidance. 6 The impact on retail alternatives was minimal,
     and we estimated the potential annual net revenue loss could range from about
     $284,000 to $1.4 million. In addition, although customers have options to access postal
     products and services in nearby facilities, there are still customer inconveniences.
     Because the MOU to close CPUs was part of the Postal Service and APWU Collective
     Bargaining Agreement, we are not making any recommendations.

     Contract Postal Unit Operations

     According to management, initiatives to expand CPUs and increase retail alternatives at
     contractor operated locations are an ongoing effort. In January 2012, the Postal Service
     issued a request for information to 80 large national retailers regarding interest in

     6
         Publication 156, Postal Service Employees Guide to Contract Postal Units, May 2010.



                                                               2
Closure of Contract Postal Units                                                                  CI-MA-12-001



establishing partnerships. Management also recognized the need to review the existing
network of CPUs; some locations reflect decisions made over decades to ensure they
meet current market demands and customer needs.

While CPUs are part of the Postal Service’s overall strategy to expand retail
alternatives, management stated that the Labor Relations office initiated and approved
the closing of the 20 CPU as part of the Collective Bargaining Agreement negotiations.
In addition, management stated the selection criteria for the CPU’s were that CPUs be
stand-alone, full-service units with PO Box Service.

We reviewed the 20 CPU contracts 7 and applicable modifications and found:

   Twenty CPUs provided full postal products and services.
   Eighteen CPUs provided PO Box Service. 8
   Six of the 20 contract units were community POs. 9

Also, we determined the Postal Service paid more than $116,000 in startup costs –
ranging from $5,000 to $14,600 - for these 20 CPUs. The startup costs included costs
for training contractor employees, issuing a contract, building out space to meet postal-
specific requirements, and implementing the CPU. Furthermore, as of May 2, 2012, the
Postal Service incurred more than $127,000 in close-out costs 10 for the 20 CPUs,
ranging from no cost to $72,300.

Lastly, the 20 CPUs had net revenue of more than $10.4 million from FY 2010 through
March 31, 2012 (see Table 2). While these CPUs in aggregate generated net revenue
for the Postal Service, three of the 20 CPUs were operating with net losses. 11 According
to Postal Service guidance, there is a link between customer traffic and revenue.
However, under the MOU, the Postal Service was not required to examine or predict
potential revenue loss. In addition, management stated they have not performed any
studies to measure the impact a facility closure may have on the Postal Service’s
revenue or collected historical data that could be used to provide an estimate based on
past CPU closures. As a result of the 20 CPU closures, we estimated the potential
annual net revenue loss could range from about $284,000 to $1.4 million 12 (see
Appendix B for our other impact calculation). We are not making a recommendation,
because we will address this issue in a future retail optimization review.


7
  The Postal Service was unable to provide the original contract for Cape Cottage, Elizabeth, ME. Instead, it provided
contract modifications 2-8.
8
  Two of 20 CPUs did not offer PO.Box Service: Better Letter, Brooklyn, NY and CPU #386, Brooklyn, NY.
9
  Alplaus Community, Alplaus, NY; Audry Hardy, Port Arthur, TX; Boscawen, Boscawen, NH; Denmark, Denmark,
NY; Kemp, Hendrix, OK; and Salona Station, Mill Hall, PA.
10
   The costs to return contractor properties to their original condition upon vacating. For example, removing all postal-
specific equipment, signage, and PO boxes.
11
   After subtracting contractor payments from revenue, net losses were reported for two CPUs from FYs 2010 through
March 2012, and one CPU from FYs 2010 through 2011. The three CPUs are A&L Management Company, Bronx,
NY; Denmark, Denmark, NY; and Salona Station, Mill Hall, PA.
12
   Our potential revenue loss estimates cannot be validated because management would need to provide additional
data that they are not required to maintain.


                                                           3
Closure of Contract Postal Units                                                               CI-MA-12-001



                                Table 2: Net Revenue of the 20 CPUs
                                                           Payments to
                                                               CPU
              Fiscal Year
                                           Revenue         Contractors                        Net Revenue
    FY 2010                                $ 5,305,147      $ (1,147,441)                      $ 4,157,706
    FY 2011                                         5,211,423             (1,144,882)                4,066,541
    October 2011 - March 2012                       2,766,135                (541,113)               2,225,022
                                 Total         $ 13,282,705             $ (2,833,436)            $ 10,449,269
Sources: Enterprise Data Warehouse/Accounting Data Mart/Finance Performance Report and Contract Postal Unit
Technology.


Customer Access

We determined that most former customers of the 20 closed CPUs have access to
Postal Service facilities within 5 miles 13 of the closed CPUs. We obtained surrounding
access points within 5 miles 14 for each of the 20 CPU addresses from the Postal
Service’s public website, usps.com (see Appendix C for additional information). While
these customers have access to POs and CPUs within a 5 miles radius, access and
travel distances vary, Specifically:

     Within 1 mile of five of the 20 CPUs there are seven POs and one CPU.
     From 1 to 3 miles of 14 of the 20 CPUs there are 74 POs and eight CPUs.
     From 3 to 5 miles of 16 of the 20 CPUs there are 31 POs and six CPUs.

In addition, Postal Service management and data systems reported that of the 2,514
PO Box Service customers:

     Nine hundred one relocated to nearby Postal Service facilities.

     Seven hundred twenty-four have status unknown status. 15

     Seven hundred three converted to street delivery, cluster box unit, 16 or
      neighborhood delivery collection box unit 17 options.

    One hundred eighty-six elected to use privately-owned mailbox service 18 or closed
     their PO Box Service Accounts.


13
   The nearest PO to the North Robinson CPU is the Galion PO at 5.3 miles.
14
   Only the first 50 access points within the 5 - mile search criteria were used for our analysis.
15
   Postal Service management was unable to provide the disposition for 724 P.O. Box Service customers.
16
   A centralized grouping of individually locked and keyed compartments or mailboxes, such as a wall-mounted unit in
an apartment building or a free-standing neighborhood delivery and collection box unit.
17
   A centralized unit of more than eight individually locked compartments sized to accommodate the delivery of
magazines, merchandise samples, and several days’ accumulation of mail. In addition, collection mail may be
deposited in a designated compartment.
18
   A private business that acts as the mail receiving agent for clients.


                                                         4
Closure of Contract Postal Units                                                         CI-MA-12-001



While customers have options to access products and transfer or convert PO Box
Service to nearby facilities or delivery service, there are customer inconveniences, such
as changing PO box numbers, and ZIP Codes, choosing delivery options, and traveling
to new locations. Because the MOU to close 20 CPUs was part of the Collective
Bargaining Agreement between the Postal Service and APWU, we are not making any
recommendations.

Our blog on the U.S. Postal Service Office of Inspector General (OIG’s) public website
about the affect of the CPU closures received 14 public comments as of May 25, 2012.
Of the 14 comments, we noted that nine were opposed to closing of the Market Place
Center in Temple, TX. In addition, a small business owner raised concerns about
incurring costs to change business letterhead, cards, and envelopes as a result of the
required PO Box Service address change. The remaining five comments fell into these
general categories: 19

    Concerns about union influences.
    Loss of convenience or service.
    Revenue loss for the Postal Service.
    Loss of jobs.
    Unexpected business expenses.

Management’s Comments

Postal Service management agreed with the findings and other impact in the report.
Management stated that, while they were unable to validate our revenue analysis, they
agreed with the metholodogy. See Appendix D for management’s comments, in their
entirety.

Evaluation of Management’s Comments

Although the report does not contain any recommendations, the OIG considers
management’s comments responsive. We agree management could not validate our
revenue analysis because data was not available to determine an exact amount of
revenue at risk associated with retail facility closures. However, we believe our revenue
analysis is conservative and the range from about $284,000 to $1.4 million is an
accurate representation of the potential annual revenue loss the Postal Service could
realize by closing the 20 CPUs.




19
 The categories represent the major concerns raised by each commenter. Additionally, most comments addressed
multiple issues and areas of concern.


                                                      5
Closure of Contract Postal Units                                         CI-MA-12-001




                              Appendix A: Additional Information

Background

Historically, brick and mortar POs were the main source of retail revenue for the Postal
Service. However, in today’s business environment, about 35 percent of retail revenue
is generated from alternate access including; usps.com, self-serve kiosks (SSK), SoC,
CPUs, and AS. CPUs are the retail alternative most similar to POs. They are operated
and managed by independent retailers to provide a range of Postal Service products
and services to customers at Postal Service prices.

The MOU to close the 20 CPUs was part of the Postal Service and APWU Collective
Bargaining Agreement. The APWU selected five of the 20 CPUs identified in the MOU,
and the Postal Service selected the remaining 15. Under the terms of the MOU, the
Postal Service agreed to close or convert 20 full-service CPUs that solely provide Postal
Service products and services and have PO Box Service to Postal Service operated
facility staffed by Postal Service employees. On May 23, 2011, the Postal Service and
APWU signed the Collective Bargaining Agreement.

Objective, Scope, and Methodology

Our announced objective reported in our April 9, 2012, audit fieldwork announcement
letter was to evaluate the operational and customer impacts of closing the 20 CPUs. We
refined our objective to review the impact of the closures on Postal Service’s retail
alternatives, financial position, and customer access. To accomplish our objective, we:

   Reviewed the MOU and contracts associated with each of the CPUs.

   Conducted interviews with Postal Service Headquarters Labor Relations and
    Channel Access managers and APWU representatives.

   Reviewed applicable policies, procedures, and regulations.

   Analyzed data from Postal Service systems.

   Reviewed news articles and public comments regarding the CPU closures.

We conducted this review from March through August 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on June 29, 2012, and included their comments where appropriate.

We collected and relied upon computer generated data from the Postal Service’s CPU
Technology, Web Box Activity Tracking System, and the Financial Performance Report
in the Accounting Data Mart. We assessed the reliability of computer generated data



                                              6
Closure of Contract Postal Units                                           CI-MA-12-001



from these systems by tracing financial and PO box data back to each original hard
copy contract. We determined that the data were reliable for the purpose of this report.

Scope Limitation

During our review, we noted the Postal Service does not collect data to measure the
impact a facility closure may have on the Postal Service’s revenue. As a result, we were
only able to estimate a potential annual net revenue loss range for the 20 closed CPUs.
We will address this issue in a future retail optimization review.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this
review.




                                             7
Closure of Contract Postal Units                                                                     CI-MA-12-001



                                         Appendix B: Other Impact

             Finding                       Impact Category                                Amount
       CPU Operations                   Net Revenue at Risk 20                           $284,658

According to Postal Service guidance, there is a link between customer visits and
revenue. As such, we believe there is a relationship between former PO Box Service
Account customers and customer visits in nearby Postal Service operated facilities or
CPUs. To estimate potential revenue loss, we computed the revenue at risk based on
the 889 former customers who have converted to delivery options (703 customers) or
closed (186 customers) their PO Box Service Accounts. We estimated that the potential
annual net revenue loss could range from $284,658 to $1,423,289 21 as a result of the
20 closed CPUs.



                                                                                                          Total
                                                                                                        Potential
                                                                                                           Net
                                          Number of            Percentage                               Revenue
                                           PO Box              of PO Box                                 at Risk
  Former PO Box Service                    Service               Service           FY11 Net
   Account Customers                      Accounts              Accounts           Revenue               (B x C)
 Relocated to nearby
 Postal Service facilities                           901                36%                      -                    -

 Status Unknown                                      724                29%                     -                     -
 Converted to street
 delivery or box unit
 options.                                            703                28%        $4,066,541          $1,138,631
 Closed their PO Box
 Service Accounts                                    186                  7%       $4,066,541              284,658
                                                                                           Total       $1,423,289




20
   Revenue that the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for
services currently provided by the Postal Service).
21
   For the OIG’s Semiannual Report to Congress, we will report $284,658.



                                                           8
Closure of Contract Postal Units                                                                         CI-MA-12-001



                                   Appendix C: Contract Postal Unit Customer Access Details

The number of POs, CPUs, SSK, AS, and SoC within 5 miles of the 20 CPU addresses.
                                        Within 1 Mile               From 1 to 3 Miles              From 3 to 5 Miles

          CPU name                 PO   CPU   SSK   AS   SoC   PO   CPU   SSK    AS     SoC   PO   CPU     SSK     AS   SoC

A & L Management Company           2                           25     1     1           21
Alplaus Community                  1                           2            1            6    4                          8
Altosano Contract CPU              1                                  3                       1
Audry Hardy                                                                                   1                     1    7
Better Letter                      1     1     1          1    15     2     7           22
Boscawen                                                                                      2
Callaway CPU                                                                             4    3                          3
Cape Cottage                                                   2      1     1            3    3      1       1           7
Central Commons                                                5            1           13    3      1       1          21
Chars Hallmark                                            3    2      1     1     2     21    3      2       2          11
Chubbuck Station                                          5    1                        10    2              1           6
CPU #386                           2                      3    16           6           23
Denmark                                                                                       1
Jake Alexander Boulevard CPU                              4    1            1     1     13    3                          1
Kemp                                                           1
Lake Buena Vista CPU                                      4    1            1            2           1              2   19
Market Place Center                                       1                              5    2                          2
North Robinson                                                                                1                          2
Salona Station                                                 2                         2    2                          1
The Mailroom                                              1    1            1            4           1                   1
Total                              7     1     1         22    74     8    21     3     149   31     6       5      3   89
Source: usps.com/Find Locations




                                                                9
Closure of Contract Postal Units        CI-MA-12-001



                            Appendix D: Management’s Comments




                                            10
